                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: I02010004                                                                 Page 1 of 1     I
      Action: Case Close
                                                                                                       Il
           Medical Services Incorporated (MAMSI). The claims involved        who.was injured in
                 .        was to reimburse                         for the medical charges.

        2. Special Agents ,                NSF-OIG a        n     d
                                                                                            I
                                                                        , OPM-OIG interviewed
           in his office and produced evidence of the falsified documents. After interviewing
           and presenting the documents, it was evident that he had no knowledge of the fraudulent
           claims. To further gauge          participation, handwriting samples were taken from
                   which appeared dissimilar to the falsified invoices.

        3. Additional interviews were performed with s
           s        o        n        ,
                                                               wife, ,              and=
                                              . These samples also appeared different from those            I
           falsified claims submitted to MAMSI. s         wife admitted that she believed her former        I

           brother in law altered the invoices.
                                                                                                            II




                                                                                                                 I

                        Agent                  Attorney              Supervisor                AIGI

  Sign 1 date    =                                                                                               I
